U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Gatto v. United States, No. 21-169
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 2,
2021. The government’s response is now due, after one extension, on October 7, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0169
GATTO, JAMES
USA

GREGORY J. KETCHAM-COLWILL
SCHULTE ROTH & ZABEL LLP
901 FIFTEENTH STREET, NW
SUITE 800
WASHINGTON , DC 20005
202-729-7470
GREGORY.KETCHAM-COLWILL@SRZ.COM
202-730-4520(Fax)
ANDREW A. MATHIAS
NEXSEN PRUET LLC
104 SOUTH MAIN STREET,
SUITE 900
GREENVILLE, SC 29601
864-370-2211
AMATHIAS@NEXSENPRUET.COM
HARRY SANDICK
PATTERSON BELKNAP WEBB & TYLER LLP
1133 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
212-336-2000
HSANDICK@PBWT.COM
MICHAEL S. SCHACHTER
WILLKIE FARR & GALLAGHER LLP
787 SEVENTH AVENUE
NEW YORK , NY 10019
212-728-8000
MSCHACHTER@WILLKIE.COM

